HHS/OIG, Audit - "Review of Claims for Multiple Procedures Performed in the Same Operative Session in Ambulatory Surgical Centers," (A-07-03-02657)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Claims for Multiple Procedures Performed in the Same Operative
Session in Ambulatory Surgical Centers," (A-07-03-02657)
December 9, 2002
Complete Text of Report is available in PDF format
(493 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
Regulations require that when multiple services are provided in the same operative
session, the highest paying procedure is reimbursable at the full payment rate
while the other procedures are reimbursable at one-half the normal payment rate.
Our analysis showed that Cigna Healthcare  Medicare Administrations systems
failed to identify such instances, which resulted in provider overpayments for
calendar years 1997 through 2001of approximately $31,062, $105,744, $130,010,
$146,782, and  $177,912 ($591,510), respectively.  Included in the
identified overpayments is approximately $127,868 in beneficiary overpayments
for coinsurance.  Most of the overpayments occurred because the carriers
processing system did not identify multiple procedures performed during the
same session when submitted on separate claims.